 

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019

THE STATE OF OKLAHOMA,

Petitioner,

vs.

JESSE ALLEN JOHNSON,

Respondent.

)
)
)
) No. 19-250
)
)
)
)

MOTION TO PROCEED IN FORMA PAUPERIS

 

Respondent Jesse Allen Johnson respectfully requests this Court permit

‘ him to proceed in forma pauperis on his Brief in Opposition to Petition for Writ of

Certiorari. Respondent is without ample funds to file this Brief in Opposition to

Petition for Writ of Certiorari. (See attached Affidavit.)

Respondent was previously found indigent in the District Court of

Oklahoma County and was permitted to file without costs in the Oklahoma Court

of Criminal Appeals.

By:

Respectfully submitted,

ROBERT A. RAVITZ
Public Defender of Oklahoma County

/

ANDREA DIGILIO MILLER (OBA # 171 19)
Attorney At Law

800 N. Harvey, Suite 317s -

Oklahoma City, Oklahoma 73102

(405) 208-6161

COUNSEL OF RECORD
By Special Appointment of the
Oklahoma County Public Defender
nena sits hiodrutbian

OKLAHOMA COUNTY

IN THE DISTRICT COURT OF OKLAHOMA COUN®Y 2 5 2018
STATE OF OKLAHOMA
RICK WARKEN

THE STATE OF OKLAHOMA, COURTICLERK

: 09 a
Plaintiff, )
VS. ; CF-2005-5714
JESSE ALLEN JOHNSON,
Defendant. }

ORDER APPOINTING PUBLIC DEFENDER

NOW on this ate day of May, 2018, the Court, having been presented an
“Order Granting Post-Conviction Relief, Vacating Sentence of Life Without Parole
and Remanding for Sentencing” from the Oklahoma Court of Criminal Appeals in PC-
2017-755, find that Mr. Johnson is indigent and is entitled to be represented by the
Oklahoma County Public Defender. The defendant was represented by office of the
Oklahoma County Public Defender during the pendency the case at the pre-trial
level.

IT IS THEREFORE ORDERED by the Court that the Oklahoma County

Public Defender's Office represent the Defendant Jesse Allen Johnson.

 

   

RAY C.#LLIOTT, District Judge

CREPE

OCF. 9-2 2019

RICK wag SURG ER
